ROBERT C. ANDREWS, esoune,?.c.

117 Auburn Street Suite 201 rob.andrews.esq@gmail.com
Portland, Maine 04103
207-879-9850, 207-879-1883 fax

 

June 15, 2021

Clerk

United States Supreme Court
1 First Street, NE
Washington, DC 20543

in re: David Alexander v.
United States

Dear Clerk:

Please find enclosed the following document for filing:

1. original and ten copies of the petition for writ of certiorari
2, 11 appendixes
3. Proof of service

Thank you for your attention to this matter. Please call me if you have any questions.
Sincerely,
Robert C. Andrews, Esq.

RA: me
enc.
IN THE
SUPREME COURT OF THE UNITED STATES

OCTOBER TERM, 2021

NO.

DVID ALEXANDRE
Petitioner

v.

UNITED STATES OF AMERICA
Respondent

PROOF OF SERVICE

STATE OF MAINE }
COUNTY OF CUMBERLAND }

DEPOSITOR, being first duly sworn, deposes and says:

That on June 15, 2021, within the time required by rule, a Petition for Writ of Certiorari in the
above entitled case was deposited in a United States Post Office mail box located in the City of Portland,
State of Maine, with first class postage prepaid, properly addressed to:

Clerk of the United States Supreme Court
1 First Street, NE
Washington, DC 20543

And that copies were also served upon Counsel for the Respondent:

Julia Lipez, AUSA
100 Middle Street, East Tower, Suite 6
Portland, ME 04101

And

The Solicitor General of the United States
United States Department of Justice
950 Pennsylvania Ave NW,

Washington, DC 20530 7 4 24 poe

Robert C. Andrews, Esq.
Depositor, A ffiant

117 Auburn Street, Suite 201
Portland, ME 04103

   

 

Subscribed and Sworn to Before Me,
This 15th day of June, 2042 Joa

JOSEPH D-LELAND
Notary Public, Maine
My Corrimission Expires September 25, 2024

    

jen and for said County and State
